CERTIFICATE OF COUNSEL
I hereby certify that this petition for rehearing is presented in good faith and not for
delay.

Respectfully submitted,

\c~

\AA

BRANDON L. BOWIE
1608 Brentnell Ave.
Columbus, Ohio 43219
614-499-7831

c
t:

10

f

c

NDVIEW FAMILY PRACTICE

J

V

1550 W.5TH AVENUE
COLUMBUS, OHIO 43212-2473
TELEPHONE: (614) 488- 7929
CHARLES B. MAY D.O.
STEPHEN ALTIC, D.O.

FAX: (614) 488-0226
HILARY McCORD, PA-C
COURTNEY ROLAND, PA-C

January 12, 2017
Brandon Bowie
921 N. Nelson Rd.
Columbus, Ohio 43219
DOB: 10/22/1986
Dear Mr. Bowie:
You have been under my care for a number of years for an industrial injury that resulted in ulnar
nerve entrapment thoracic outlet syndrome and left shoulder/scapular dyskinesia. These conditions
continue to impair the function in your left arm with vascular impairment as well as neurologic
impairment referable to the ulnar nerve. This has resulted in some muscular issues for you as well
and strength loss in the left arm. I had previously indicated that you should limit your driving to no
more than 20-30 miles at a time and certainly commercial driving at less than 20 miles. It is my
understanding you have been required to show up personally for hearings in Cincinnati relative to
issues regarding child support. It is my opinion that your neurologic and vascular problems in the left
arm limit your ability to drive as I have stated above. It might be more beneficial for you, therefore,
to be able to have videoconferencing or hearings by way of video.
Sincerely,

Stephen Altic, D.O.

HAMILTON COUNTY JUVENILE COURT
IN RE:

Case No. Fll-803 X

ALAYAH BOWIE
ARIELLE BOWIE

Decision of Magistrate

This matter came to be heard on the Motion for Contempt of Visitation Order heranllllii
iMAYA AUSTELL, Mother, on
04/13/2016. Also for hearing this day is a Motion to Modify the Prior Court Order_of Visitation^ pi filed by MAYA AUSTELL,
Mother, on 04/13/2016. In addition, a Motion for Contempt of Visitation OrckJ Hg filed by BRANDON BOWIE, Adjudicated
Father, on 06/17/2016 is before the Court. In addition, a Motion to Modi
|§pr Court Order of Visitation herein filed by
BRANDON BOWIE, Adjudicated Father, on 09/22/2016 is before the Court!
pPW for Pro Kids. Ms. Langenkamp GAL.
Attorney for MAYA AUSTELL is Hartke. Attorney for B
ON BO* Whitfield.
All evidence and testimony has been presented to the Cotiff
The Court's prior order of visitation is hereby modifid|||r
Father's motion to waive his appearance is granted
notioijfojiappear via telephone or video teleconferencing is denied. ^4-^
as this would interfere with the ability of the court to Dronerlvotffl
^jMs. Austell is willing to stipulate to the MP^orders of the court of 1/6/2017 and 3/13/2017.
r?f\Accordingly, visitation shall occur in E ffiIt0n ClM|ty’ 0hio- Father must give notice of his intention to exercise weekend
visitation by 10:00 pm the preceding Tuesday. FI ||4o popfeie notice will result in forfeiture of the visit.

ai

Turning now to the issue of contempt, tes
court order of 8/8/2013 by failing to return the twins as scheduled. For Christmas 2015, Mr. Bowie was entitled to have the children
from 10 am to 5 pm Christmas Day. Instead, Mr. Bowie kept the children until 1/3/2016. The court finds that Mr. Bowie did not give
proper notice to exercise extended visitation time and finds that he willfully violated an order of the court by failing to return the
children by 5pm Christmas Day. Mr. Bowie is m contempt of the order of this court. He is fined $100 per day for 12/26/2015-1/3/2017
tor a total of $900. Said amount is to be paid directly to mother or through her attorney no later than 12/20/2017 6:00pm.
An award of reasonable attorney fees is in order, however, there is no evidence as to the number of hours or hourly rate.
With regard to the request for a finding of contempt against Mr. Bowie for breaking watch phones purchased by Ms Austell
and damaged while the children were in the care of father, there is no order of the court that address damage to the property of the
children. Jurisdiction over his issue does not lay with the juvenile court.
CD #610
Magistrate Catherine Kelley
June 20, 2017
I have received a copy of the Decision of Magistrate and therefore waive service by the Clerk.

The Magistrate’s Decision is hereby approved and entered as the judgment of the Court.

Judge

*18854070*
jcmg244c.dot

Page 1 of 2

.}

>
Objection of Magistrate’s Decision

♦J8854070*
jcmg244c.dot

Page 2 of 2

>

HAMILTON COUNTY JUVENILE COURT
IN RE:

Case No. F11-804X

JALEYA BROWN

Decision of Magistrate

This matter came to be heard on the Motion for Contempt of Visitation Order hergfr r-JW JACOLE BROWN, Mother, on
04/13/2016. Also for hearing this day is a Motion to Modify the Prior Court Order of VtHI
^hS^jyn filed by JACOLE BROWN,
Mother, on 04/13/2016. In addition, a Motion for Contempt of Visitation Order herein filed byHHjj
™J$NDON BOWIE, Adjudicated
Father, on 06/17/2016 is before the Court. In addition, a Motion to Modify thOKor Court Order of Visitation herein filed by
BRANDON BOWIE, Adjudicated Father, on 09/22/2016 is before the Court. JmS§fflpjijfurt for Pro Kids. Ms. Langenkamp GAL,
Attorney for JACOLE BROWN is Hartke. Attorney for BRANDON
is Whitfield.
All evidence and testimony has been presented to the Court.
It is hereby ordered that visitation between BRANDON. OW1
,
nd JALEm BROWN bom 07/22/2009 be as follows.
Father's motion to waive his appearance is granted. Tjiflnolft^mappear via telephone or video teleconferencing is denied,
as this would interfere with the ability of the court to properly ffflrve ank|Msess the credibility of Mr. Bowie.

i

Ms. Brown is willing to stipulate to the Integra orders of^cojMof 1/6/2017 and 3/13/2017.
Accordingly, visitation shall occur in Hjgmpm County, Ohio. Father must give notice of his intention to exercise weekend
visitation by 10.00 pm the preceding Tuesday. F||jpfe to provide notice will result in forfeiture of the visit.
Turning now to the issue of contempt, test
in anc* conc*uc*ecl- Ms. Brown contends that Mr. Bowie violated the court
order of 8/8/2013 by failing to return the child as scMWlM For Christmas 2015, Mr. Bowie was entitled to have the child from 10 am
to 5 pm Christmas Day. Instead, Mr. Bowie kept the child until 1/3/2016. The court finds that Mr. Bowie did not give proper notice to
exeicise extended visitation time and finds that he willfully violated an order of the court by failing to return the child by 5pm
Christmas Day. Mr. Bowie is in contempt of the order of this court. He is fined $100 per day for 12/26/2015-1/3/2017 for a total of
$900. Said amount is to be paid directly to mother or through her attorney no later than 12/20/2017 6:00pm.

i

An award of reasonable attorney fees is in order, however, there is no evidence as to the number of hours or hourly rate.
Dismiss motions currently pending that were filed by father.
CD #610
Magistrate Catherine Kelley
June 20, 2017
I have received a copy of the Decision of Magistrate and therefore waive service by the Clerk.

The Magistrate’s Decision is hereby approved and entered as the judgment of the Court.

Judge

Objection of Magistrate’s Decision
Any party may file written objections to a Magistrate’s Decision within 14 days of the filing of the decision. A party shall not assign as error on appeal the Court's
adoption of any factual finding or legal conclusion, whether or not specifically designated as a finding of fact or conclusion of law under Civ. R, 53(D)(3)(a)(ii) unless
the party timely and specifically objects to that factual finding or legal conclusion as required by Civ. R. 53(D)(3)(b).

*18854132*
jcmg244c.dot

Page 1 of 1

7/9/2021
•ii

Video/Teleconferencing Information - Hamilton County

„*
Hamilton County / Government / Courts / Court of Domestic Relations / Video/Teleconferencing
Information

©

A+

A-

HOW TO APPEAR TELEPHONICALLY OR VIA VIDEO CONFERENCE
uPcom'n9 hearing and you would like to request to appear via telephone or videoconferencing, please complete
already have an ac8counfand SUbmit t0 tbe C0Ur1 f°r review- The most efficient way to submit this request is via electronic filing. Follow this link to establish an e-filir
https://www.courtclerk.org/forms-filings/e-filing/
BroadwaynandnnatiSOHn«2029 aCC0Unt'y0U may mail °r drop off the rectuired documents to the Hamilton County Domestic Relations Court, Attn: Docket Office, F

VIDEOCONFERENCING
Hamilton County Domestic Relations Court has chosen to utilize Zoom videoconferencing software for video hearings. A basic Zoom license to participate in a vide
advance610 6Stab 'sh an account lf Vou are strictly joining Zoom meetings as a participant. On some devices, like phones and tablets, you will need to download t
The Court will send you an email that contains a link. Five minutes before the hearing, click on the link in the email and you will be connected. If you are unfamiliar v
following links will give you an understanding of how the program works.
For information about acquiring and installing Zoom videoconferencing software click here.
To learn how to use Zoom on a PC or MAC, click here.
For information about joining a meeting, click here.
For a complete list of Zoom training video tutorials click here.
Best Practices for Virtual Court Appearances via Video or Telephone
The following is a sample videoconference invitation in a Gmail inbox. If you do not find an email, check your calendar to see if the event is saved there.
BOS

is

O

B

•

:

Invitation: Sample Invitation @ Sat Sep 19, 2020 9am - 10am (EDT)
®'

•Sample invitation
19

PV ;.i minute:;

☆

*

Agenda

ViV.v sri C'CjCOS Cater,35'

At ,-xp

So; Sep IS. 2C2S2SIT:- tOoPVSLTn

Sat y

&

'infest

Jvdgs

£>:>r»x:Sisc Redoes Cciii;-2na

■iC<
ZSCth (7;

P3IT

£3>r:pe> trjvSiatscn

The citfis! is; 1$. not avarfaKte

A;-

f.iayp-i

N-;

Vou have been invited to the’foilowing event.

: Sample invitation
VY':-,';

S3*. Sep 13.2020 9«rp - 10ai;: csstt m 7;;n<- • Nt-.v ^

YYbsi#

DcmesOc Relations Coy;'.-2nd ana Tci-Snc-Judce
:nr;;

details »

Join Zoom Mestina
-3 Pit.;
Join by phone

».)>:■ e; SdCTss-gs* a
Jairinc insTvchons
JOFVnp nPasSPCiJc 3?3005
CiiiiCSjW
V.T..Y

fGueSi =;st has been hidden a; organize:* requsrst;
P

Irrrf’n.u,

■ MsyJ2S • tta

mc-e owbr-s r

Cxiar;?;

TELECONFERENCING
If the Court orders a telephonic hearing, the plaintiff or defendant is directed to coordinate a conference call with all parties and then call 513-946-9101 to be conne.
Magistrate.
If the Court orders a telephonic hearing, the plaintiff or defendant is directed to coordinate a conference call with all parties and then call 513-946-9024 or513-946-9
the Administrative Judge Jon Sieve.
If the Court orders a telephonic hearing, the plaintiff or defendant is directed to coordinate a conference call with all parties and then call 513-946-9031 or 513-946-<
Judge Amy Searcy.
https://www.hamiltoncountyohio.gov/government/courts/court_of_domestic_relations/video__teleconferencingjnformation

1/2

7/9/2021

Video/Teleconferencing Information - Hamilton County

Judge^Susan^ Tolbert ePh°niC hear'n9, the plaintiff or defendant is directed to coordinate a conference call with all parties and then call 513-946-9016 or 513-946-1

Hamilton County | All Rights Reserved i Powered by CMcUve I« 2021 Intrado Corporation.

https://www.hamiltoncountyohio.gov/govemment/courts/court_of_domestic_relations/video __teleconferencingjnformation

2/2

No.

20-7814

IN THE
SUPREME COURT OF THE UNITED STATES
Brandon Bowie - Petitioner
VS.
Hamilton County Juvenile Court, et al - Respondent(s)
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The petitioner asks leave to file the attached petition for a writ of certiorari without
prepayment of costs and to proceed in forma pauperis.
Please check the appropriate boxes:
_X_ Petitioner has previously been granted leave to proceed in forma pauperis in the following
court(s):
__Petitioner has not previously been granted leave to proceed in forma pauperis in any other
court.
_X_ Petitioner’s affidavit or declaration in support of this motion is attached hereto.
__Petitioner’s affidavit or declaration is not attached because the court below appointed counsel
in the current proceeding, and:
The appointment was made under the following provision of law: ,
The appointment was made under the following provision of law:__________________
, or
a copy of the order of appointment is appended.

(Signature)

AFFIDAVIT OR DECLARATION
IN SUPPORT OF MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
I, Brandon Bowie, am the petitioner in the above-entitled case. In support of my motion to
proceed in forma pauperis, I state that because of my poverty I am unable to pay the costs of this
case or to give security therefor; and I believe I am entitled to redress.
1. For both you and your spouse estimate the average amount of money received from each of
the following sources during the past 12 months. Adjust any amount that was received weekly,
biweekly, quarterly, semiannually, or annually to show the monthly rate. Use gross amounts, that
is, amounts before any deductions for taxes or otherwise.
Income source

Average monthly amount during
the past 12 months
You

Spouse

Amount expected
next month
You

Spouse

Employment

$ n/a

$ n/a

$ n/a

$ n/a

Self-employment

$ n/a

$ n/a

$ n/a

$ n/a

Income from real property
(such as rental income)

$ n/a

$ n/a

$ n/a

$ n/a

Interest and dividends

$ n/a

$ n/a

$ n/a

$ n/a

Gifts

$ n/a

$ n/a

$ n/a

$ n/a

Alimony

$ n/a

$ n/a

$ n/a

$ n/a

Child Support

$ n/a

$ n/a

$ n/a

$ n/a

Retirement (such as social
security, pensions,
annuities, insurance)

$ n/a

$ n/a

$ n/a

$ n/a

Disability (such as social
$794
security, insurance payments)

$ n/a

$ n/a

$ n/a

Unemployment payments

$ n/a

$ n/a

$ n/a

$ n/a

Public-assistance
(such as welfare)

$ n/a

$ n/a

$ n/a

$ n/a

Other (specify):

$ n/a

$ n/a

$ n/a

$ n/a

Total monthly income:

$794

$ n/a

$ n/a

$ n/a

2. List your employment history for the past two years, most recent first. (Gross monthly pay is
before taxes or other deductions.) N/A - Disabled since 2010

3. List your spouse’s employment history for the past two years, most recent employer first.
(Gross monthly pay is before taxes or other deductions.) N/A
4. How much cash do you and your spouse have? $0.00
Below, state any money you or your spouse have in bank accounts or in any other financial
Institution.
Type of account
Checking

Amount you have

Amount spouse has

$0.00

n/a

5. List the assets and their values which you own or your spouse owns. Do not list clothing and
ordinary household furnishings.
Home - n/a
Don’t own a home
Value

Other real estate- n/a
Don’t own any property
Value

Motor Vehicle #1 - n/a
Don’t own a vehicle
Value

Motor Vehicle #2 - n/a
Don’t own a vehicle
Value

Other assets - n/a
Description
Value
6. State every person, business, or organization owing you and your spouse money and the
amount owed. N/A
7. State the persons who rely on you and your spouse for support. For minor children, list initials
instead of names.

Name

Relationship

B. B.

Age

son

14

8. Estimate the average monthly expenses of you and your family. Show separately the amounts
Paid by your spouse. Adjust any payments that are made weekly, biweekly, quarterly, or
annually to show the monthly rate.
You
Rent
Real estate taxes included

$157

Spouse
$ n/a

__yes _x_ no

Property insurance included

yes _x_no

Utilities (electricity, heating fuel,
water, sewer and telephone)

$125

$ n/a

Home maintenance - landlord

$ n/a

$ n/a

Food

$125

Clothing

$50

$ n/a

Laundry and dry cleaning

$10

$ n/a

Medical and dental expenses

$0

$ n/a

$ n/a

Transportation

$ 50

Recreation

$50

$ n/a

Home Owner/ Renter Insurance

$ n/a

$ n/a

Life Insurance

$ n/a

$ n/a

Motor Vehicle Insurance

$ n/a

$ n/a

Taxes
Installment payments

$ n/a

$ n/a

Motor Vehicle

$ n/a

$ n/a

$ n/a

Credit Cards

$ n/a

$ n/a

Department Store

$ n/a

$ n/a

Other

$ n/a

$ n/a

Alimony, maintenance & support
paid to others

$ n/a

$ n/a

Total Monthly Expenses

S 567

$ n/a

9. Do you expect any major changes to your monthly income or expenses in your assets or
liabilities during the next 12 months?

Yes

X No

If yes, describe on an attached sheet.

10. Have you paid - or will you be paying an attorney any money for services in connection with
this case, including the completion of this form?
Yes
X No
If yes, how much?
If yes, state the attorney’s name, address, and telephone number:
11 ■ Have you paid—or will you be paying -anyone other than an attorney (such as a paralegal
or a typist) any money for services in connection with this case, including the completion of
this form?
Yes
X No
If yes, state the person’s name, address, and telephone number.
12. Provide any other information that will help explain why you cannot pay the costs of this
case.

I declare under penalty of perjury that the foregoing is true and correct.
Executed on:

7/9/2021

, 2021

(Signature)

